           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         FOLLOW-UP OF THE
   ENUMERATION AT BIRTH PROGRAM

    April 2006   A-08-06-26003




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   April 27, 2006                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up of the Enumeration at Birth Program (A-08-06-26003)



        OBJECTIVE
        Our objectives were to determine (1) the status of corrective actions the Social Security
        Administration (SSA) had taken to address recommendations resulting from our
        September 2001 report, Audit of Enumeration at Birth Program, (A-08-00-10047) and
        (2) whether the Agency’s internal controls adequately protected the integrity of the
        Enumeration at Birth (EAB) process.

        BACKGROUND

        EAB offers parents an opportunity to request a Social Security number (SSN) for their
        newborn as part of the birth registration process. Participating hospitals forward SSN
        requests and other birth registration data to State Bureaus of Vital Statistics (BVS).
        BVSs forward the SSN requests to SSA. EAB is available in all 50 States as well as
        certain jurisdictions (Puerto Rico, New York City, and the District of Columbia).
        Approximately 92 percent of the original SSNs SSA assigns to U.S. citizens each year
        are processed through EAB. In Fiscal Year (FY) 2005, SSA assigned about 4 million
        original SSNs through EAB.

        Our September 2001 report highlighted weaknesses in controls and operations that we
        believed SSA needed to address to reduce the EAB program’s vulnerability to potential
        error and misuse and to enhance program efficiency. SSA agreed to:

        •   re-invest some of the savings realized by the EAB program and provide necessary
            funding, during future contract modifications, for the BVSs to perform periodic,
            independent reconciliations of registered births with statistics obtained from
            hospitals’ labor and delivery units and periodically verify the legitimacy of sample
            birth records obtained from hospitals;

        •   enhance its duplicate record detection and prior SSN detection routines to provide
            greater protection against the assignment of multiple SSNs;
Page 2 - The Commissioner


•    instruct field office personnel to exercise greater care when resolving
     system-generated enumeration feedback messages (EFM); 1

•    cross-reference 2 multiple SSNs SSA assigned to the 178 children in our sample;
     and

•    continue to monitor the timeliness of BVS submissions and work with those BVSs
     that have difficulty complying with the time frames specified in the contracts.

The Intelligence Reform and Terrorism Prevention Act of 2004 requires that SSA
conduct a study to determine options for ensuring the integrity of the EAB process,
including methods to reconcile hospital birth records with birth registrations submitted to
State and local agencies and information provided to SSA. The Act also requires that
SSA provide a report to Congress on the results of the study, including
recommendations for legislative changes, as deemed necessary, not later than
18 months after enactment. We agreed to perform this review to assist the Agency in
meeting this reporting requirement.
To accomplish our objectives, we visited hospitals, contacted BVSs, and interviewed
appropriate SSA personnel. In addition, we analyzed SSA’s Modernized Enumeration
System (MES) Transaction History File data for children under 1 year of age whom SSA
issued original and/or replacement SSN cards from April 1, 2004 through
March 31, 2005 to identify instances in which SSA assigned multiple SSNs to newborns.
We also assessed BVS’ timeliness in submitting birth registration data to SSA. See
Appendix B for additional information on our audit scope and methodology.

RESULTS OF REVIEW

We commend SSA for its EAB program and believe it has the potential to strengthen
SSN integrity and assist the Agency in delivering a higher quality of service to the
public. However, we identified weaknesses in existing controls and operations we
believe SSA needs to address to improve the efficiency and effectiveness of the EAB
process. We remain concerned about SSA’s vulnerability to fictitious birth records
because BVSs have not established independent methods of reconciling hospital birth
records with its birth registrations. In addition, SSA continued to assign multiple SSNs
to newborns because (1) system edits did not always detect multiple SSN applications
processed for the same child on the same day or recognize SSNs previously assigned
to newborns, and (2) field office personnel did not always properly resolve EFMs.
Furthermore, some BVSs continued untimely submission of birth records.


1
 MES sends feedback messages to field offices when the data transmitted conflict with previously
established data on SSA’s records.
2
  When an individual has been assigned more than one SSN, SSA “cross-refers” the SSNs so the
individual's earnings can be properly credited to his/her earnings record.
Page 3 - The Commissioner


SSA REMAINED VULNERABLE TO POTENTIAL ERROR AND/OR
MISUSE
Our 2001 review determined that SSA was vulnerable to potential error and/or misuse
because there was a lack of separation of duties within hospitals’ birth registration units.
Clerks in these units gathered information needed to prepare the certificates of live
birth, entered birth information into personal computers, printed birth certificates,
obtained parents’ and hospital certifiers’ signatures, and forwarded the electronic and
paper versions of the certificates to the BVSs. Therefore, we were concerned that birth
registration clerks could generate a certificate of live birth for a nonexistent child. As
such, we recommended that SSA provide funding for the BVSs to perform periodic
independent reconciliations of registered births with statistics obtained from hospitals’
labor and delivery units. In response to our recommendation, SSA stated it would
propose such a review to the States in upcoming contract negotiations.

Based on the results of this review, we remain concerned about SSA’s vulnerability to
fictitious birth records. During our visits to eight hospitals, we determined that a lack of
separation of duties within hospitals’ birth registration units still existed. That is, birth
clerks in the hospitals we visited were generally involved in all aspects of the birth
registration process. We do not believe that one individual should perform all key
aspects of the birth registration process. We recognize that staff limitations may hinder
hospitals’ efforts to segregate duties; however, we believe compensating controls would
reduce the vulnerability to fictitious birth records.

None of the hospitals we visited had adequate controls in place to compensate for the
lack of segregation of duties in their birth registration units. Specifically, none of the
hospitals performed periodic, independent reconciliations of birth records with birth
registrations they submitted to BVSs. Furthermore, none of the BVSs we contacted
performed such reconciliations or had other adequate compensating controls in place to
protect against fictitious birth records. 3 We continue to believe BVSs should periodically
reconcile submitted birth registrations with hospital birth records to reduce SSA’s
vulnerability to fictitious birth records and enhance the integrity of the EAB process.

Potential Options for Ensuring Integrity of Birth Records

To identify potential options for ensuring the integrity of birth records, we contacted
additional BVSs to determine whether they (1) independently reconciled registered
births with statistics obtained from hospitals’ labor and delivery units or (2) had other
compensating controls to protect against fictitious birth records. One of the BVSs we
contacted told us it routinely matches its database of registered births with the State’s
Metabolic Neonatal Screening 4 database to ensure the accuracy and completeness of
its records. To identify corresponding records in each file, BVS personnel focus on the
3
 We initially contacted the 10 BVSs that SSA estimated would process the most EAB records in
FY 2005.
4
    All States and U.S. territories perform newborn screening to test for metabolic and genetic diseases.
Page 4 - The Commissioner


date and time of birth, baby’s gender, mother's last name, and ZIP code. According to
the Assistant State Registrar, the BVS plans to manually review all mismatches to
resolve discrepancies.

During interviews with other BVS officials, we discussed the feasibility of matching birth
registration data with neonatal screening records. BVS officials in one southeastern
State agreed that matching this information was a viable option for ensuring the integrity
of birth records. In fact, they told us the BVS matched birth registration data with the
State’s infant screening records in 2004. Because the BVS determined the State’s
infant screening database was incomplete, it is taking steps to ensure this information is
accurate and complete before performing another match. Officials at another BVS told
us they believed that matching birth registration data with neonatal screening records
was feasible and could protect against fictitious birth records.

Officials at other BVSs told us that States could also match hospital discharge records
with birth registration data to ensure the integrity of birth records. The Director of the
Office of Vital Records in one large western State told us his office compared hospital
discharge records with birth registration data a few years ago. His office identified
about 1,600 mismatches but did not attempt to resolve the discrepancies. The Director
told us hospitals’ discharge records may not always be readily available for matching
with birth registration records and therefore may not be the best option for ensuring the
integrity of birth records.

In October 2005, the Department of Health and Human Services issued a draft report
that included recommendations regarding BVS’ verification of birth occurrence. The
report recommended that each State establish independent methods for verifying that a
birth actually occurred. Specifically, the report recommended that BVSs

•   match electronic birth records with other databases, such as hospital discharge,
    newborn screening, and hospital billing records and

•   establish methods for reconciling births that do not match electronically.

In addition, a May 2005 National Association for Public Health Statistics and Information
Systems White Paper on Recommendations for Improvements in Birth Certificates
recommended that all BVSs establish a method of reconciling birth-related hospital
records, such as hospital discharge records or newborn metabolic or hearing screening
records, with birth registrations hospitals submitted to BVSs.

We believe such matching could be a cost-effective tool for ensuring the integrity of birth
records. It would help BVSs identify instances in which they have a birth record but no
corresponding record in another database (for example, neonatal screening or hospital
discharge records). We believe resulting mismatches could indicate fictitious birth
records. Ultimately, the success of any matching process depends on the accuracy of
the databases and whether BVS personnel adequately resolve mismatches.
Page 5 - The Commissioner


SSA CONTINUED TO ASSIGN MULTIPLE SSNs TO NEWBORNS

During our 2001 review, we identified instances in which SSA assigned a newborn
two different SSNs that were not cross-referenced. We concluded that SSA
erroneously assigned these SSNs because systems edits did not (1) detect multiple
SSN applications processed for the same child on the same day or (2) recognize SSNs
previously assigned to newborns. Furthermore, we found that field office personnel
failed to appropriately resolve EFMs. SSA agreed to (1) enhance its duplicate record
detection routines 5 to prevent future assignment of multiple SSNs, (2) look at its prior
SSN detection routines and practices to determine whether there were feasible software
modifications that would provide greater protection, and (3) instruct Agency personnel to
exercise greater care when processing EFMs.

Our analysis of MES records disclosed 1,252 instances (nationwide) in which SSA
assigned multiple SSNs to newborns. Additional analysis showed that SSA had not
cross-referenced 932 of these cases. In about 53 percent of these cases, SSA
assigned one SSN through the EAB process and another SSN through an SSA field
office. SSA assigned multiple SSNs through EAB in about 47 percent of the cases.
While we recognize that 1,252 instances from the almost 4 million SSNs assigned
through EAB each year is a very small error rate (approximately .03 percent),
assignment of more than 1 SSN to an individual causes concern because of the
opportunity it creates for program abuse and/or identity fraud. In fact, SSA considers
such cases “critical errors” when calculating its annual SSN accuracy rate. 6 Although
we did not identify instances of SSN misuse, we remain concerned about SSA’s
vulnerability to such activity. As such, we continue to encourage SSA to consider
enhancing its duplicate record and prior SSN detection routines to provide greater
protection against the assignment of multiple SSNs, when priorities and resources
allow. Additionally, we believe SSA should re-emphasize the need for Agency
personnel to properly resolve EFMs to prevent assignment of multiple SSNs.

Duplicate Record and Previously Assigned SSN Detection Routines

To provide greater protection against the assignment of multiple SSNs to newborns,
SSA enhanced its duplicate record detection routine in November 2005. SSA modified
MES to prevent the Agency from assigning two SSNs to the same child based on
two EAB record submissions (in the same file) with different birth certificate numbers. 7
We believe this change will reduce the number of multiple SSNs the Agency assigns to
newborns. In fact, we believe SSA would not have assigned 499 of the multiple SSNs
5
  We use the term “duplicate record detection routine” throughout this report to refer to edits SSA uses to
identify records containing identical data or records with slight variances in the applicant’s names.
6
 SSA’s Office of Quality Performance defines a “critical error” as either a misassigned number or the
assignment of multiple numbers that are not properly cross-referenced.
7
 SSA also modified MES to prevent the Agency from assigning SSNs to children with first names, such
as Baby, Infant, and Unknown. We support SSA’s actions to prevent assignment of SSNs to unnamed
children.
Page 6 - The Commissioner


we identified in this review had it implemented this detection routine before our audit
period. Although we commend SSA for enhancing its duplicate record detection
routine, this system modification will not detect duplicate SSN applications that are
processed via EAB and through a field office on the same day.

Once a record passes the duplicate record detection routine, MES searches its SSN
master file for SSNs the Agency may have previously assigned the applicant. During
the search, MES compares numerous fields of data on the incoming record with the
master file. However, we identified over 400 instances in which system edits failed to
identify an SSN previously assigned to a child. In these cases, there was generally a
variance of only one or two characters in the applicant’s first name as shown on the
matched records.

Inappropriate Resolution of Enumeration Feedback Messages

During our 2001 review, we identified instances in which field office personnel had not
properly resolved EFMs generated by MES. As such, we recommended that SSA
instruct field office personnel to exercise greater care when processing EFMs. SSA
agreed with our recommendation and issued an Emergency Message that emphasized
the need for field office personnel to properly resolve EFMs.

Based on the results of this review, we remain concerned about the inappropriate
resolution of EFMs. Despite SSA’s efforts to address this issue, we determined that
MES generated an EFM on one or both of the matched records in over 14 percent of
the multiple SSN cases we identified. We believe SSA would not have assigned
multiple SSNs in these cases if field office personnel had properly resolved the EFMs.

SOME BVSs CONTINUED UNTIMELY SUBMISSION OF BIRTH
RECORDS

During our 2001 review, we determined that 21 (40 percent) of the 53 participating
BVSs had not submitted birth records to SSA within an average of 30 days of the child’s
date of birth, as required in their contracts. We recommended that SSA continue
monitoring the timeliness of BVS submissions and work with those BVSs that were
having difficulty complying with the time frames specified in their contracts. SSA agreed
with our recommendation.

Although the number of BVSs in compliance with the 30-day submission requirement
has improved, we remain concerned about some BVS’ untimely submission of birth
records. Specifically, we determined that 12 (23 percent) of the 53 BVSs did not submit
birth records within the required time frame. As a result, we believe some parents
applied for their childrens’ SSNs through field offices even though they had previously
requested an SSN though the EAB process.

Our analysis of MES data disclosed 66,642 instances, nationwide, in which parents
submitted a second SSN application when they did not receive the card through EAB
Page 7 - The Commissioner


within 30 days of the child’s date of birth. 8 Based on unit cost data obtained from SSA,
we estimate it cost the Agency approximately $1.6 million to process these second SSN
requests through its field offices. 9 If the timeliness of EAB application submissions does
not improve, and all variables remain constant, SSA may reduce the savings otherwise
realized from the EAB program by approximately $8 million over the next 5 years. 10

CONCLUSION AND RECOMMENDATIONS

We acknowledge the steps SSA has taken to enhance the integrity of the EAB process.
We also recognize SSA must rely on assistance and support from hospitals and States.
However, weaknesses continue to exist in controls and operations we believe SSA
needs to address to enhance the efficiency and effectiveness of the EAB process.
Ultimately, the success of SSA’s efforts will depend on the priority it places on improving
existing EAB controls and operations and how successful it is in obtaining assistance
and support from hospitals and States.

We recommend that SSA:

1. Encourage and assist BVSs in establishing independent methods to reconcile
   hospital birth records with birth registrations submitted to States.

2. Consider enhancing its duplicate record and prior SSN detection routines to provide
   greater protection against the assignment of multiple SSNs.

3. Cross-reference the multiple SSNs SSA assigned to newborns during our audit
   period. We will provide further details regarding these individuals under separate
   cover.

4. Re-emphasize the need for field office personnel to exercise greater care when
   resolving EFMs generated by MES.

5. Continue to monitor the timeliness of BVS submissions and work with those BVSs
   having difficulty complying with the time frames specified in the contracts.

8
  We identified 66,642 instances by analyzing our April 1, 2004 through March 31, 2005 MES Transaction
History File data extract. Specifically, we identified all “original” SSNs field offices assigned to children
under 1 year of age that also had corresponding “replacement” transactions processed through EAB. We
then eliminated those transactions in which parents applied for original SSNs at field offices within the
30-day period allowed by the contracts.
9
  According to SSA, in FY 2004, it cost the Agency $24 to process an SSN application taken by field
office personnel. Therefore, we calculated our estimate as follows: 66,642 x $24 = $1,599,408 rounded
to $1.6 million.
10
   Because the trend in issuance of SSN cards via the EAB program during the last 3 years indicates a
slight increase from year to year (3.779 million in FY 2002, 3.784 million in FY 2003, and 3.928 million in
FY 2004), we believe the use of FY 2004 data in calculating the 5-year estimate results in a conservative
amount.
Page 8 - The Commissioner



AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix C.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                        Appendix A

Acronyms
BVS    Bureau of Vital Statistics
EAB    Enumeration at Birth
EFM    Enumeration Feedback Message
FY     Fiscal Year
MES    Modernized Enumeration System
SSA    Social Security Administration
SSN    Social Security Number
                                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed applicable laws, 1 regulations, 2 and Social
Security Administration (SSA) procedures. 3 In addition, we held discussions with SSA
Headquarters personnel and made site visits to eight hospitals in Alabama, California,
Illinois, and Maryland. In selecting the hospitals, we considered the number of
Enumeration at Birth (EAB) submissions, the type of facility (that is, public or private),
and their locations.

We contacted the 10 Bureaus of Vital Statistics (BVS) 4 SSA estimated would transmit
the most birth records to the Agency during Calendar Year 2005 and inquired about
controls they had in place to ensure the integrity of birth records received from
hospitals. In addition, we interviewed hospital personnel to obtain an understanding of
the processes they followed to collect birth registration information, prepare birth
certificates, and transmit both paper and electronic versions of the certificates to the
BVSs. During hospital visits, we also verified selected birth registrations with hospitals’
labor and delivery units.

As part of the audit, we obtained SSA’s Modernized Enumeration System (MES)
Transaction History File data for children under 1 year of age whom SSA issued original
and/or replacement Social Security number (SSN) cards from April 1, 2004 through
March 31, 2005. Using data mining techniques, we identified records indicative of
possible duplicate SSN applications. We then analyzed these records to identify
situations in which we believed SSA assigned a child multiple SSNs. We also contacted
BVSs to verify children’s births.

We assessed participating States’ and other jurisdictions’ timeliness in submitting birth
registration data to SSA. Using our MES data extract, we determined the number of
instances in which parents submitted a second SSN application at an SSA field office
when they did not receive the SSN card through EAB within 30 days of the child’s date
of birth. We then calculated SSA’s estimated costs of processing these second
applications and extrapolated that amount to obtain an estimate of the savings SSA
may not realize over the next 5 years if States and other jurisdictions do not reduce their
processing times.

1
    Section 205 [42 U.S.C. 405] (c)(2)(B)(i) and (ii) of the Social Security Act, as amended.
2
    20 C.F.R. § 422.103 (b) and (c).
3
    Program Operations Manual System, sections RM 00202.001 and RM 00202.035.
4
 California, Florida, Georgia, Illinois, New York, New York City, North Carolina, Ohio, Pennsylvania and
Texas.


                                                      B-1
The SSA entities audited were the Office of Public Service and Operations Support
under the Deputy Commissioner for Operations and the Office of Earnings,
Enumeration and Administrative Systems under the Deputy Commissioner for Systems.
We performed our audit field work from May 2005 through February 2006. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                       B-2
                  Appendix C

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      April 17, 2006                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye       /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up of the Enumeration at Birth
           Program" (A-08-06-26003)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP OF THE ENUMERATION AT BIRTH PROGRAM"
(A-08-06-26003)


Thank you for the opportunity to review and comment on the draft report. The Social
Security Administration (SSA) has a commitment to monitor the Enumeration at Birth
(EAB) program by State and to make necessary improvements where possible. We have
made great headway since the original OIG report was released and we have detailed
some of those accomplishments below.

We will continue to enhance the efficiency and effectiveness of the EAB process.
Ultimately, our success will depend on obtaining both the assistance and support from
hospitals and States and the funding necessary to implement the recommendations.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should encourage and assist the Bureau of Vital Statistics (BVS) in establishing
independent methods to reconcile hospital birth records with birth registrations submitted
to States.

Response

We agree. As the Background/Report Synopsis states, an interagency workgroup headed
by the Department of Health and Human Services (HHS), of which SSA is a participant,
has already studied the vulnerabilities in hospital procedures and drafted a
recommendations paper to address this issue. At this time, HHS advises us that they
expect to have the draft regulations for standardizing the requirements States use as part
of their birth registration process published in the Federal Register by late summer and
the final regulations in 2007. A part of the planned regulation will pertain specifically to
reconciliation of hospital birth records. SSA has awarded a contract to do the economic
analysis on the recommendations.

Recommendation 2

SSA should consider enhancing its duplicate record and prior Social Security number
(SSN) detection routines to provide greater protection against the assignment of multiple
SSNs.

Response

We agree. In December 2005, we made changes in our systems software to capture
applications input by the State that are for the same child and that have duplicate
information (with the exception of the birth certificate number) and to create an


                                            C-2
exception for the second record. This software has been working well and addresses the
recommendation.

It should be noted that SSA does not issue a second (different) SSN when a case is
processed from an SS-5 action and there is an EAB action on the same day. The second
case that reaches the system is held and re-run the next day. This results in an exception
since the SSN had already been issued the day before.

Recommendation 3

SSA should cross reference the multiple SSNs SSA assigned to newborns during our
audit period.

Response

We agree. We will cross-refer the cases within 120 days of receipt from OIG. Also, we
will review the cases and determine if further refinements can be made to the systems
edit routine to prevent the assignment of multiple SSNs within 180 days after receipt of
the cases from OIG.

Recommendation 4

SSA should re-emphasize the need for field office personnel to exercise greater care
when resolving Enumeration Feedback Messages (EFM) generated by the Modernized
Enumeration System (MES).

Response

We agree. Field offices should take great care to process EFMs, including the ones
generated as a result of the Intelligence Reform and Terrorism Prevention Act software
changes effectuated in December 2005. We released an Administrative Message
(AM 080251) to this effect on February 6, 2006.

Recommendation 5

SSA should continue to monitor the timeliness of BVS submissions and work with those
BVSs having difficulty complying with the time frames specified in the contracts.

Response

We agree. We have taken a number of actions to work with the States to assist them in
complying with current contract timeframes. On August 22, 2000, we established a
Frequently Asked Question (FAQ) on SSA’s Internet site entitled “How Long Does it
Take to get a Social Security Card for a Newborn?” The response provides the public
with each State's average processing time, and it also enables States to compare their
performance against other States. This site is updated monthly.


                                            C-3
Our Regional Offices receive management information reports for every EAB file that is
submitted by their respective States. The Regions use these reports to monitor and keep
in contact with their respective States regarding file submissions and average processing
times.

Over the last several years, we have made contacts through our Regional Offices with
Kentucky (KY), North Carolina (NC), and Illinois to determine what can be done to
reduce the average age of birth files being submitted to SSA. Additionally, we have
worked with Oklahoma, Louisiana, and Mississippi (MS) over the last year and most
recently have initiated contact with Nevada to help them improve their processing time.

Despite our efforts, we still have several States that are consistently above the 30-day
average. We hope to offer them solutions to bring their average age into contract
compliance. We will continue to work with them and explain to them that we will have
stricter guidelines for the 2008-2012 EAB contracts.

Average age varies depending upon the State's funding, ability to hire staff and to key
existing backlogs. Therefore, we take 3-month snapshots and work with the States whose
average processing times are over 30 days. We have been very successful in many States
by reducing their average age of birth files below the 30-day national average. For
example, we successfully reduced the average age for 6 of the 12 States mentioned in the
report: Arkansas went down 6 days to a 30 day average; Delaware went down 7 days to a
25 day average; KY went down 24 days to a 44 day average; MS went down 10 days to
34 day average; NC went down 19 days to a 33 day average; and Pennsylvania went
down 3 days to a 34 day average.

We will continue with monthly monitoring of all States' processing times, and will offer
solutions to enable the States to maintain average ages that are within contract guidelines.




                                            C-4
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1605

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   William C. McMillan, Senior Auditor

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-06-26003.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
